No.

IN THE SUPREME COURT OF THE UNITED STATES
MARIO ALLAN MONTANO, Petitioner,
v.
KAMESHIA D. GANT, Respondent.

APPENDIX

Appendix A

Court of Appeals, State of Michigan
ORDER

In re Montano
Docket No.

353392

LC No.

2017-854298-PP

Elizabeth L. Gleicher, Judge, acting under MCR 7.211(E)(2), orders:
.
, lhe motlon 10 waive lees is DENIED because a review of the plaintiffs affidavit of
indigency shows the ability to pay.

oomplaiatthe

Within 21 days of the Clerk's certification of this order, plaintiff shall pay to the Clerk of
°fS375' Failure to comi>ly with this order win result in the dismissal of plaintiff s

Wuhin 21 da)'s of the Clerk’s certification of this order, plaintiff shall pay to lhe Clerk of
the Court the motion lee ol $100. failure to comply with this order will result in the motion for change
ol venue being stricken.

v.

A true copy entered and certified by Jerome W. Zimmer Jr., Chief Clerk, on

APR 2 1 2020
Date

Appendix B

Court of Appeals, State of Michigan
ORDER

In re Montano
Docket No.

353392

LC No.

2017-854298-PP

Christopher M. Murray, Chief Judge, acting under MCR 7.211(E)(2), orders:
Following de novo review under MCR 2.002(G)(2), the motion to waive fees is DENIED
because plaintiff has failed to provide sufficient evidence of indigency.
Within 21 days of the Clerk’s certification of this order, plaintiff shall pay to the Clerk of
the Court the entry fee of $375. Failure to comply with this order will result in the dismissal of
plaintiff’s complaint.
Within 21 days of the Clerk’s certification of this order, plaintiff shall pay to the Clerk of
the Court the motion fee of $100. Failure to comply with this order will result in the motion for change
of venue being stricken.

'in

^7

A true copy entered and certified by Jerome W. Zimmer Jr., Chief Clerk, on

APR 2 8 2028
9 6

Date

Appendix C

Court of Appeals, State of Michigan
ORDER

In re Montano
Docket No.

353392

LC No.

2017-854298-PP

Christopher M. Murray, Chief Judge, acting under MCR 7.201(B)(3), orders:
The complaint for superintending control is DISMISSED for failure to pursue the case in
conformity with the rules. MCR 7.201(B)(3) and 7.216(A)(10). Plaintiff has failed to correct the defect
in this filing by paying to the Clerk of the Court the $375 entry fee and the $25 e-filing system fee.
Dismissal is without prejudice to whatever other relief may be available consistent with the Court Rules.
The motion for change of venue filed on April 9, 2020, is withdrawn in accordance with
plaintiffs request.
/

u

VK>;

^7

A true copy entered and certified by Jerome W. Zimmer Jr., Chief Clerk, on

JUN 1 6
Date

Appendix D

Order

Michigan Supreme Court
Lansing, Michigan

October 5, 2020

Bridget M. McCormack,
Chief Justice

David F. Viviano,
Chief Justice Pro Tem

161499

Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,

In re MONTANO.

Justices

MARIO ALLAN MONTANO,
Plaintiff-Appellant,
SC: 161499
COA: 353392
Oakland CC: 2017-854298-PP
OAKLAND COUNTY CIRCUIT COURT
JUDGE,
Defendant-Appellee.

On order of the Chief Justice, the application for leave to appeal is
administratively dismissed for the failure of plaintiff-appellant to pay the outstanding
fees. The clerk of the Court shall not to accept further filings from the plaintiff-appellant
in any civil matter until the sanctions ordered by this Court in No. 161152, IW v MM
($500.00) and No. 161299, Montano v Court ofAppeals ($1,000.00) are paid in full.

mSm
3

A
ivsis^L

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
October 5, 2020
Clerk

